HHS/OIG-Audit--"Report on the Audit of Administrative Costs Incurred Under Parts A and B of the Health Insurance for the Aged and Disabled Programs by Blue Cross and Blue Shield of Michigan, (A-05-93-00013)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Audit of Administrative Costs Incurred Under Parts A and
B of the Health Insurance for the Aged and Disabled Programs by Blue Cross and
Blue Shield of Michigan," (A-05-93-00013)
April 2, 1993
Complete Text of Report is available in PDF format
(4.5 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our review of administrative
costs incurred by Blue Cross and Blue Shield of Michigan (BCBSM) for the period
October 1, 1987 through September 30, 1989. The audit was performed under contract
by the certified public accounting firm of Davis, Graves & Livingston, P.C.
The audit resulted in recommended financial adjustments totaling approximately
$3.0 million and costs set aside totaling $4.2 million for adjudication by the
Health Care Financing Administration (HCFA). Regional HCFA officials generally
concurred with the findings and recommendations.